U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Jimmie Eugene White II v. United States
No. 19-587
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 1,
2019, and placed on the Court's docket on November 5, 2019. The government's response is
currently due, on two extensions, on February 5, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including March 6, 2020, within which to file the government's response. This extension is
necessary because the attorneys with principal responsibility for final preparation of the
government's response have been heavily engaged with the press of other matters before the Court
and with the medical care and death of a parent.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0587
WHITE, JIMMIE EUGENE, II
USA

JOHN P. ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5000
JOHN.ELWOOD@ARNOLDPORTER.COM
JEREMY C. MARWELL
VINSON & ELKINS LLP
2200 PENN. AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037
202-639-6507
KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

